No. 20-634

 

 

IN THE

Supreme Court of the United States

FELICIA ROBINSON,
Petitioner,
Vv.

WEBSTER COUNTY, MISSISSIPPI, et al,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

MOTION FOR LEAVE TO FILE AND BRIEF OF
NETWORK FOR VICTIM RECOVERY OF DC
AS AMICUS CURIAE SUPPORTING
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,243 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 10, 2020.

 

Colin CaseY Hogan
Wilson-Epes Printing Co., Inc.
